  Report No. D-2008-029                               December 5, 2007




Request for and Use of Emergency Supplemental
     Funds for the Rapid Fielding Initiative




  This special version of the report has been revised to omit For Official Use Only information
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)

                      Department of Defense Inspector General 

                        400 Army Navy Drive (Room 801) 

                            Arlington, VA 22202-4704 





Acronyms
DLA                   Defense Logistics Agency
O&M                   Operation and Maintenance
PEO Soldier           Program Executive Office Soldier
RFI                   Rapid Fielding Initiative
                                          DEPARTMENT OF DEFENSE
                                           400 ARMY NAVY DRIVE
                                                 VIRGINIA 22202-·4704



                                                                          December 5, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on Request for and Use of Emergency Supplemental Funds for the

         Rapid Fielding Initiative (Report No. D-2008-029)



        Weare providing this repmi for review and comment. The Assistant Secretary of
the Army (Financial Management and Comptroller) did not provide signed comments on
the draft report. However, we considered comments from the Program Executive Office
Soldier through the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) when preparing the final report.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
We request that Program Executive Office Soldier provide additional comments on
Recommendation l.a.,1.b.,1.c., and l.d., and request that the Assistant Secretary ofthe
Army (Financial Management and Comptroller) provide signed comments on
Recommendation 2. We request that comments be provided by January 7, 2008.

        If possible, please send management comments in electronic fornlat (Adobe
Acrobat file only) to AlJDROS((i)dodig.mil. Copies ofthe management comments must
contain the actual signature of the authorizing official. We cannot accept the I Signed I
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

           ap!)rei:;ial:e the courtesies extended to the staff.
                  SCtI011l~WCI1t at   1
                            9




                                                       A. Scott
                                                Assistant Inspector General
                                                Readiness and Operations Support
               Department of Defense Office of Inspector General
Report No. D-2008-029                                                   December 5, 2007
   (Project No. D2006-D000LD-0062.000)

          Request for and Use of Emergency Supplemental Funds
                      for the Rapid Fielding Initiative

                                 Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are involved in managing emergency supplemental funds to support the Global War on
Terrorism should read this report because it discusses requesting and using emergency
supplemental funds.

Results. The Program Executive Office Soldier requested and used emergency
supplemental operation and maintenance funds in FY 2006 and similarly requested and
planned to use supplemental funds in FY 2007. As a result, the Program Executive
Office Soldier used about $221 million in emergency supplemental funds during FY
2006 to provide Rapid Fielding Initiative items to about 125,000 soldiers who had not
deployed and were not scheduled to deploy in support of contingency operations.
Additionally, the Program Executive Office Soldier records as of October 2006 showed
that it planned during the first part of 2007 to provide Rapid Fielding Initiative items to
about 100,000 soldiers who were not scheduled to deploy at a cost of about $177 million.
The cost of Rapid Fielding Initiative items for FY 2006 and for FY 2007 was about
$398 million in emergency supplemental funds that could have been put to better use.

We recommend that the Program Executive Office Soldier document requests for
emergency supplemental funds for the Rapid Fielding Initiative only for deploying
soldiers in accordance with the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and Congressional guidance on contingency
operations. We also recommend that the Program Executive Office Soldier field Rapid
Fielding Initiative items acquired with supplemental funds only to those deploying or
scheduled to deploy, and request baseline operation and maintenance funds to field Rapid
Fielding Initiative items to nondeploying soldiers. In addition, we recommend that the
Assistant Secretary of the Army (Financial Management and Comptroller) develop a
process to verify that requests for emergency supplemental funds are for soldiers
deploying in support of contingency operations. See the Finding section of this report for
detailed recommendations. The managers’ internal controls that we reviewed were not
effective in that we identified a material weakness in the Army’s process for requesting
and using emergency supplemental funds. Recommendations in this report, if
implemented, will correct the weakness identified and will improve Army oversight and
use of emergency supplemental funds.

Management Comments and Audit Response. The Program Executive Office Soldier,
through the Assistant Secretary of the Army (Acquisition, Logistics, and Technology),
nonconcurred that the Program Executive Office Soldier had an internal control
weakness in the way that it requested, documented, and used supplemental appropriations
to support the Rapid Fielding Initiative. In addition, Program Executive Office Soldier
declared the recommendations in the draft report regarding the need to separate
deploying and nondeploying funding requirements moot because of the resourcing and
equipping guidance from Army G-8. The Program Executive Office Soldier stated that
the Chief of Staff of the Army approved the campaign plan to equip the entire operational
Army by the end of FY 2007, with no distinction between deploying and nondeploying
soldiers. Funding for the campaign plan was primarily through supplemental
appropriations. The Program Executive Office Soldier previously requested baseline
funds for the Rapid Fielding Initiative, but said the Army G-8 responded by removing
baseline funding from the Rapid Fielding Initiative request and directing the Program
Executive Office Soldier to expect and use supplemental funds. The Program Executive
Office Soldier also noted that DoD and Congress changed (for FY 2006) and expanded
the purpose of supplemental funding to include noncontingency requirements such as
modularity. (Refer to the Finding section for a discussion of management comments and
to the Management Comments section for the complete text of the comments.)

We consider the comments partially responsive. We agree that the Chief of Staff for the
Army required equipping the entire operational Army with Rapid Fielding Initiative
items. However, we could not find support that Army G-8 removed the baseline funding
and directed Program Executive Office Soldier to use supplemental funding.
Congressional, DoD, and Army guidance provides policy and instructions for requesting
or using emergency supplemental funds. All the guidance discusses using supplemental
funds to cover incremental costs of contingency operations.

Concerning modularity, the Army has embraced this concept in reconfiguring its forces
to provide more combat power and deployment flexibility. Although we were not able to
determine whether modularity is a contingency requirement—PEO Soldier cited it as a
noncontingency program funded with supplemental funds—the Army explicitly
requested emergency supplemental funds for the Modularity Forces Initiative, whereas
the emergency supplemental funds request for Rapid Fielding Initiative items did not
state that these items would be provided to nondeploying soldiers. Program Executive
Office Soldier should develop procedures and documents to determine whether Rapid
Fielding Initiative costs are related to deploying soldiers, document requests for
emergency supplemental funds that are for contingency operations, and request baseline
operation and maintenance funding to provide the Rapid Fielding Initiative items to
nondeploying soldiers. We request that Program Executive Office Soldier reconsider and
provide additional comments on the recommendations by January 7, 2008.

The Assistant Secretary of the Army (Financial Management and Comptroller) did not
provide signed comments to the draft report, issued March 22, 2007. We request that the
Assistant Secretary provide comments on the final report by January 7, 2008.

Management Actions. The decision by the Army Requirements and Resources Board on
November 16, 2006, to amend Program Executive Office Soldier’s Rapid Fielding
Initiative mission supports our finding and recommendations. The decision rescinded the
mission to equip the Operational Army with a standard Rapid Fielding Initiative
capabilities package by the end of FY 2007. The amended mission is to commit all
available resources to equipping Deployment Expeditionary Forces. Initial fielding to
elements of the Operational Army that have not yet received Rapid Fielding Initiative
equipment will continue but be limited to essential modernization and safety items—
advanced combat helmet and accessories, ballistic eyewear, knee and elbow pads, and the
improved first aid kit—as long as fielding these does not impact the priority mission to
equip deploying forces. Although Program Executive Office Soldier’s comments were
not fully responsive, the actions of the Army Requirements and Resources Board met the
intent of our recommendation to field the items only to deploying soldiers.

                                           ii
Table of Contents 


Executive Summary                                                                i


Background                                                                       1


Objectives                                                                       2


Review of Internal Controls                                                      2


Other Matter of Interest                                                         2



Finding
     Emergency Supplemental Funds for Rapid Fielding Initiative Items 

       Provided to Nondeploying Personnel                                        3


Appendixes
     A. Scope and Methodology                                                   11 

     B. Supply Chain Management of Class II Items for RFI                       12 

     C. Report Distribution                                                     15 


Management Comments
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   17 

     Program Executive Office Soldier                                           18 

Background 

    Program Executive Office Soldier. The Assistant Secretary of the Army for
    Acquisition, Logistics, and Technology activated the Program Executive Office
    Soldier (PEO Soldier) in April 2002. The mission of PEO Soldier is to develop,
    acquire, field, and sustain everything the soldier wears, carries, and operates to
    increase combat effectiveness. The Army viewed the soldier as a system and
    began taking a more strategic approach to designing, producing, and fielding
    clothing and individual equipment. In October 2002, the Vice Chief of Staff of
    the Army directed that PEO Soldier develop a process that would respond quickly
    to soldier requirements for mission-essential clothing and equipment.

    Rapid Fielding Initiative. PEO Soldier developed the Rapid Fielding Initiative
    (RFI) program in November 2002, when PEO Soldier representatives met directly
    with soldiers in Afghanistan to gather feedback about inadequacies in equipment,
    how to correct them, and the new or additional equipment soldiers needed to
    succeed. PEO Soldier concluded that soldiers were subsidizing the Army’s
    underfunding of organizational clothing and equipment by purchasing
    off-the-shelf items before deploying to alleviate deficiencies. RFI expedites
    acquiring and fielding up-to-date, off-the-shelf clothing, individual equipment,
    tentage, organizational tool kits, hand tools, administrative supplies, and
    equipment items (Class II) to support soldiers. Some examples of RFI items
    include gloves, hydration systems, socks, modular sleeping systems, flex cuffs,
    and binoculars. The fielding process begins when PEO Soldier orders RFI items
    from the Defense Logistics Agency (DLA) and commercial suppliers. The
    suppliers deliver the items to a staging facility in Middle River, Maryland, where
    they are kitted for distribution. Next, PEO Soldier schedules a distribution at an
    Army installation, consolidates items for distribution, ships the items to the
    installation, and then distributes them to the soldiers. Finally, PEO Soldier sends
    any excess items back to the Maryland staging facility for later redistribution.

    In November 2002, PEO Soldier began fielding RFI items to deploying soldiers.
    In October 2003, the Vice Chief of Staff of the Army directed that every soldier
    deploying to Iraq or Afghanistan receive RFI items. In January 2004, the Chief of
    Staff of the Army expanded the original scope of RFI from soldiers deployed or
    deploying to Afghanistan and Iraq to encompass the entire operational Army by
    the close of FY 2007. The operational Army conducts operations around the
    world and consists of numbered armies, corps, divisions, brigades, and battalions.
    As of October 2006, the authorized end strength of the operational Amy was
    about 800,000 soldiers.

    To fund the majority of RFI, PEO Soldier requested supplemental funds and
    received $500 million in FY 2005, $436 million in FY 2006, and $500 million in
    FY 2007 in emergency supplemental operation and maintenance (O&M)
    appropriations for contingency operations related to the Global War on Terrorism.
    O&M appropriations are funds used for day-to-day operations, civilian salaries,
    and expenses of operational military forces. The funds must be obligated within 1
    year.




                                         1

Objectives
           The overall audit objective was to evaluate the supply chain management of
           clothing and textile (Class II) items to determine whether the supplies were being
           efficiently and effectively obtained. Specifically, we reviewed the requirements
           determination, the acquisition of selected Class II items, and supply
           responsiveness (whether soldiers receive RFI before they deploy). We also
           reviewed the internal controls as they related to the audit objectives.

Review of Internal Controls
           Using DoD Directive 5010.38, “Management Control (MC) Program,”
           August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
           Program Procedures,” August 28, 1996,1 we identified no major weaknesses in
           internal controls within PEO Soldier that related to requirements determination
           for Class II items or supply responsiveness. Internal controls related to the
           acquisition of selected Class II items were generally adequate, except for controls
           related to requesting and using emergency supplemental funds. We identified an
           internal control weakness in the way the Assistant Secretary of the Army
           (Acquisition, Logistics, and Technology) and PEO Soldier requested and used
           emergency supplemental funds for the Rapid Fielding Initiative Program.
           Controls put in place by the Assistant Secretary of the Army (Acquisition,
           Logistics, and Technology) and PEO Soldier over the request for and use of
           emergency supplemental funds did not ensure that supplemental funds were
           requested and used only for deploying soldiers involved in contingency
           operations in support of the Global War on Terrorism. Recommendations 1. and
           2., if implemented, will improve the Army’s oversight and use of emergency
           supplemental funds. A copy of the report will be provided to the senior official
           responsible for internal controls in the Office of the Assistant Secretary of the
           Army (Acquisition, Logistics, and Technology).

Other Matter of Interest
           The audit stemmed from questions that DLA raised about the dual acquisition of
           Class II items by both DLA and PEO Soldier. Considering the urgent and
           compelling nature of RFI and regulatory guidance, we concluded that PEO
           Soldier’s acquisition of selected Class II items was warranted. However, in
           reviewing the acquisition of Class II items, we found a problem with the request
           for and use of emergency supplemental funds to outfit nondeploying soldiers.
           This report discusses the request for and use of emergency supplemental funding
           for RFI. See the Finding section for additional information. Appendix B
           discusses the audit results related to the objective: evaluating the supply chain
           management of clothing and textile (Class II) items for RFI.

1
    Office of Management and Budget Circular No. A-123, “Management’s Responsibility for Internal
    Control,” December 21, 2004, provided updated internal control standards and new requirements for
    conducting management’s assessment of internal controls over financial reporting. Revised OMB
    Circular No. A-123 became effective in FY 2006. Subsequently, DoD canceled DoD Directive 5010.38
    and issued DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” January 4, 2006.


                                                     2

           Emergency Supplemental Funds for
           Rapid Fielding Initiative Items Provided
           to Nondeploying Personnel
           PEO Soldier requested and used emergency supplemental O&M funds in
           FY 2006 of $221 million and also requested and planned to use
           emergency supplemental O&M funds of $177 million in FY 2007 to
           provide RFI items to soldiers who did not and were not scheduled to
           deploy in support of contingency operations. PEO Soldier took these
           actions because its managers believed that RFI, which was approved in
           connection with the Global War on Terrorism, qualified for emergency
           supplemental funds. In addition, the Office of the Assistant Secretary of
           the Army (Financial Management and Comptroller) did not establish
           procedures to verify that requests for emergency supplemental funds were
           for deploying soldiers only. As a result, PEO Soldier used about $221
           million in emergency supplemental funds during FY 2006 to provide RFI
           items to about 125,000 soldiers who had not deployed and were not
           scheduled to deploy in support of contingency operations. Additionally,
           PEO Soldier’s records as of October 2006 showed that during the first 5
           months of FY 2007 the Program Office planned to provide RFI items to
           about 100,000 soldiers who were not scheduled to deploy at a cost of
           about $177 million. The cost of Rapid Fielding Initiative items for
           FY 2006 and for FY 2007 was about $398 million in emergency
           supplemental funds that could have been put to better use.

Emergency Supplemental Funds Guidance
    Congressional, DoD, and Army guidance provides instructions for requesting and
    using emergency supplemental funds.

    Congressional Guidance. Both Section 9012, Title IX of Public Law 109-148,
    “Department of Defense Appropriations Act” for FY 2006, December 30, 2005,
    and Section 9013, Title IX of Public Law 109-289, “Department of Defense
    Appropriations Act” for FY 2007, September 29, 2006, state that amounts
    appropriated as part of supplemental funding are for contingency operations
    related to the Global War on Terrorism.

    Section 101, title 10, United States Code, January 2004, defines a contingency
    operation as a military operation in which members of the Armed Forces are or
    may become involved in military actions, operations, or hostilities against an
    enemy of the United States.

    DoD Guidance. DoD Regulation 7000.14-R, “DoD Financial Management
    Regulation,” volume 12, chapter 23, September 2005, defines incremental costs
    as additional costs that DoD would not have incurred if a contingency operation
    had not been supported. These costs include the cost of individual and
    organizational clothing and equipment that were not already issued to personnel
    deploying to, participating in, or supporting a contingency operation.



                                        3

    The Office of the Under Secretary of Defense (Comptroller)/Chief Financial
    Officer issued two memorandums, “Request for Incremental Funding Justification
    for Fiscal Year (FY) 2006 for the Global War on Terrorism,” November 22, 2005,
    and “Fiscal Year (FY) 2008-2013 Program and Budget Review,” July 19, 2006.
    The memorandums define incremental costs as those that exceed the amount in
    the baseline budget and are required to conduct contingency operations. One
    example cited in the FY 2006 memorandum was RFI items for deploying units:
    the memo instructed the Services to include only costs associated with Operation
    Iraqi Freedom and Operation Enduring Freedom in requests for supplemental
    funding. The FY 2007 memorandum allowed the Services to include costs
    associated with Operation Jump Start. The memorandum stated that supplemental
    costs should address only those incremental costs that are “emergency” in nature
    and are specifically required to prosecute mission objectives. The memorandum
    further stated, “Costs that can be deferred without immediate operational impact
    will not be included.” Only “must fund” costs associated with Operation Iraqi
    Freedom, Operation Enduring Freedom, and Operation Jump Start are to be
    included.

    Army Guidance. The Army’s Office of the Assistant Secretary (Financial
    Management and Comptroller) issued its “FY 2005 Global War on Terrorism
    Requirements Data Call” in June 2004 for the FY 2005 supplemental request.
    The purpose was to identify only incremental O&M requirements. The data call
    identified areas of projected incremental costs, such as operations and
    sustainment, to support a deployment. The data call defined incremental costs as
    those that would not have been incurred if the operation had not been executed.
    The Army issued informal guidance for the FY 2006 and FY 2007 requirements
    data call in support of the Global War on Terrorism, anticipating that the Office of
    the Secretary of Defense would request a data call for incremental costs. This
    guidance placed the same restrictions on PEO Soldier as did the FY 2005
    memorandum dated June 2004.

Request for and Receipt of Emergency Supplemental O&M
  Funds for Providing RFI Items to Soldiers Not Supporting
  Contingency Operations
    The PEO Soldier Program Office requested and received FY 2006 and FY 2007
    emergency supplemental O&M funds to provide RFI items to soldiers who did
    not deploy and were not scheduled to deploy in support of contingency
    operations.

    Size of the Operational Army. Most RFI requirements are for the operational
    Army. PEO Soldier determined the number of personnel in the operational Army
    from the Structure and Manpower Allocation System database. The database
    records, maintains, and distributes force structure information, such as the number
    of troops in each unit, for all Army units. It also includes a force structure file
    that reflects the approved structure of each Army unit. PEO Soldier personnel
    compared the information in the database with the Time-Phased Force and
    Deployment Data that the U.S. Forces Command maintains. The Forces
    Command database identifies Army units scheduled for deployment. PEO
    Soldier’s comparison identified deploying and nondeploying units.


                                         4

    Emergency Supplemental O&M Funds Requested. PEO Soldier sends
    requirements for emergency supplemental O&M funds to the Department of the
    Army, Office of the Deputy Chief of Staff for Programs (G-8). Responsible for
    shaping the future Army, Army G-8 conducts programming, integrates materiel,
    and manages Army studies and analyses. PEO Soldier requested $519 million for
    FY 2006 and $571 million for FY 2007 for RFI. These amounts represented
    funding needed for RFI requirements for those fiscal years. Army G-8 prepared a
    written justification for RFI based on the input received from PEO Soldier and
    forwarded it to the Office of the Assistant Secretary of the Army (Financial
    Management and Comptroller). Army G-8 provided various data to support the
    FY 2006 request, including the amount of emergency supplemental funds, a
    description of the program, reasons for requesting the funds, and likely effect if
    funds were not provided. The request stated that, without funds, deploying forces
    would not receive RFI for increased force protection on the battlefield. The
    request did not mention that the funds requested would also be used to provide
    RFI items to soldiers who were not scheduled for deployment. The Office of
    Assistant Secretary of the Army (Financial Management and Comptroller) sent
    the completed justification to the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer to include in the overall DoD supplemental request.

    The DoD request for O&M emergency supplemental funds for FY 2006
    incorporated PEO Soldier’s requirements and stated that the funds were for the
    cost of individual and organizational special clothing and equipment that was not
    already issued to personnel who were deploying. This statement was not accurate
    because PEO Soldier’s requirements included RFI costs for personnel who would
    not be deployed.

    FY 2006 and FY 2007 Emergency Supplemental Operation and Maintenance
    Funds Received. In FY 2006, Title IX, “Additional Appropriations,” provided
    PEO Soldier with supplemental O&M funds for RFI items. The FY 2006 funds
    were for RFI, force protection, and interceptor body armor. The Title IX
    appropriations were for programs that were too urgent to be postponed until the
    next regular appropriation. Budget personnel from PEO Soldier stated that the
    final amount of emergency supplemental O&M funds received for FY 2006 was
    $436 million. For FY 2007, PEO Soldier received $500 million in Title IX
    emergency supplemental O&M funds for RFI. PEO Soldier planned to use the
    funds to provide RFI items to the operational Army, even soldiers not scheduled
    for deployment. For example, in FY 2007, PEO Soldier planned to provide RFI
    items to 5,928 soldiers in the Virginia Army National Guard that PEO Soldier
    determined were not scheduled for deployment.

RFI Role in the Global War on Terrorism and Related
  Funding
    PEO Soldier considered RFI part of the Global War on Terrorism. PEO Soldier
    therefore believed it was allowed to use emergency supplemental funds for
    acquiring and distributing all RFI items.

    In October 2003, the Vice Chief of Staff of the Army directed that every soldier
    deploying to Iraq or Afghanistan receive RFI items. In January 2004, the Chief of
    Staff of the Army expanded the original scope of RFI to encompass the entire


                                        5

     operational Army by the close of FY 2007. In addition, although the mission of
     outfitting the entire operational Army fell on PEO Soldier, the Chief of Staff for
     the Army and the Assistant Secretary of the Army (Financial Management and
     Comptroller) did not provide additional baseline funding for FYs 2006 and 2007
     to accomplish the mission.

Review of Emergency Supplemental Requests
     The Army did not establish procedures to review supplemental requests to
     determine whether all funds requested were needed for soldiers deploying in
     support of contingency operations.

     Personnel at the Army G-8 office reviewed PEO Soldier’s request for emergency
     supplemental funds for RFI items. The review was to determine whether the
     requirement request met Army guidance to field RFI to the operating Army.
     Army G-8 personnel did not review or determine whether the emergency
     supplemental request from PEO Soldier was for deploying soldiers in support of
     contingency operations. The standard procedure is that, after Army G-8
     personnel review a requirement request for emergency supplemental funds, they
     forward it to the Office of the Assistant Secretary of the Army (Financial
     Management and Comptroller), who is responsible for consolidating the Army’s
     request for emergency supplemental funds and sending it to the Office of the
     Under Secretary of Defense (Comptroller)/Chief Financial Officer. Personnel
     from the Office of the Assistant Secretary of the Army (Financial Management
     and Comptroller) and the Under Secretary of Defense (Comptroller)/Chief
     Financial Officer stated that, because of their small staffs, the large number of
     requests for individual emergency supplemental funds, and the short time they
     had to develop supplemental requests, they did not conduct in-depth reviews; they
     just compared the current year request with the previous year’s request to
     determine whether they were similar. In addition, personnel from both offices
     stated that they believed the requests for and use of emergency supplemental
     funds for RFI items were for deploying soldiers.

     PEO Soldier should document RFI costs related to deploying soldiers to support
     requests for emergency supplemental funds for contingency operations. In
     addition, PEO Soldier should field items acquired with supplemental funds only
     to those deploying or planning to deploy. Because of the volume of requests and
     the large amount of funds involved in emergency supplemental requests, officials
     must reemphasize reviews and controls to determine whether all requests are used
     for their intended purposes. The Office of the Assistant Secretary of the Army
     (Financial Management and Comptroller) also needs to develop a process to
     verify and document that requests for emergency supplemental funds are for
     deploying soldiers in support of contingency operations.

Cost To Outfit Soldiers Not Deployed
     Cost for FY 2006. Using cost data provided by PEO Soldier budget personnel,
     we estimated that PEO Soldier spent about $221 million in supplemental funds
     during FY 2006 to provide RFI items to approximately 125,000 soldiers who had
     not deployed or were not scheduled to deploy in support of contingency


                                          6

           operations. A PEO Soldier database, the Consolidated Fielding Record, showed
           that PEO Soldier fielded RFI items to about 321,000 soldiers during FY 2006.
           PEO Soldier uses the database to monitor the fielding of RFI items to meet
           mission requirements. The database showed which units were outfitted, the dates,
           and the number of soldiers in the units who received RFI items. Of the 321,000
           soldiers who the database showed received RFI items during FY 2006, PEO
           Soldier categorized about 129,000 as “Army-at-Large.”2 For example, PEO
           Soldier provided RFI items to 450 soldiers of the 478th Engineer Battalion of the
           81st Army Reserves who were not scheduled to deploy. We compared the Army-
           at-Large fieldings during FY 2006 with the Time-Phased Force and Deployment
           Data that the U.S. Army Forces Command provided in October 2006. The Time-
           Phased Force and Deployment Data showed which units deployed, their
           deployment dates, and the number of soldiers in each unit who deployed in
           FY 2006 or were scheduled to deploy during FY 2007.

           Our comparison showed that 125,000 of the 129,000 soldiers who received RFI
           items did not deploy during FY 2006 and were not scheduled to deploy in
           FY 2007. Using cost information that PEO Soldier gave us in August 2006, we
           computed the RFI item cost per soldier: $1,771. We multiplied that cost by the
           125,000 soldiers in estimating that PEO Soldier used about $221 million in
           supplemental funds during FY 2006 to provide RFI items to soldiers who had not
           deployed and were not scheduled to deploy. PEO Soldier should have requested
           and used baseline O&M funds to field RFI items to the 125,000 soldiers.

           Estimated Cost for FY 2007. On the basis of scheduling data that PEO Soldier
           provided in October 2006, we estimated that PEO Soldier would use about
           $177 million in supplemental funds during the first 5 months of FY 2007 to
           provide RFI items to about 100,000 soldiers whose records showed they were not
           scheduled for deployment. In October 2006, PEO Soldier provided the RFI
           Master Fielding Schedule. The schedule, not completed at that time for all of
           FY 2007, showed that RFI fieldings were planned for about 157,000 soldiers
           during FY 2007. Of the 157,000 fieldings, PEO Soldier categorized about
           100,000 as Army-at-Large or not scheduled for deployment. Because the master
           schedule did not identify specific units for planned fieldings, we could not
           compare the schedule with the Time-Phased Force and Deployment Data that the
           U.S. Forces Command provided us. Consequently, we could not confirm that the
           100,000 scheduled fieldings were, in fact, to units that did not plan to deploy. If,
           however, the master schedule was accurate, PEO Soldier would have used
           $177 million in supplemental funds that could have been put to better use.

Current Management Actions
           Since we issued the draft audit report, PEO Soldier officials informed us that they
           have stopped fielding Rapid Fielding Initiative items to soldiers not scheduled to
           deploy. It stopped based on an Army Requirements and Resources Board
           decision on November 16, 2006, to amend PEO Soldier’s mission. The decision
           rescinded the Rapid Fielding Initiative mission to equip the Operating Army with
           a standard RFI capabilities package by the end of FY 2007. The amended
2
    Army-at-Large is a term PEO Soldier uses to show that the soldiers had not deployed or were not
    scheduled to deploy when RFI items were fielded.



                                                      7

    mission is to focus exclusively on and commit all available resources to equipping
    Deployment Expeditionary Forces of the Army Force Generation Ready force
    pool. Initial fielding to elements of the Operating Army that have not yet
    received RFI equipment will continue, but it will be limited to essential
    modernization and safety items—advanced combat helmet and accessories,
    ballistic eyewear, knee and elbow pads, and the improved first aid kit—as long as
    fielding these items does not impact the priority mission to equip deploying
    forces.

Conclusion
    In April 2002, the Army established PEO Soldier to develop, acquire, field, and
    sustain everything the soldier wears, carries, and operates to increase combat
    effectiveness. The Vice Chief of Staff of the Army expanded the role of PEO
    Soldier in October 2002 to include a process that would respond quickly to the
    requirements of individual soldiers for weapons, clothing, and equipment. Thus
    began RFI, which expedited acquiring and fielding off-the-shelf individual
    clothing and equipment to soldiers. Congress enacted legislation to provide the
    Services with emergency supplemental funds to pay for contingency operations
    and specified how to use the emergency supplemental funds for contingency
    operations. In addition, the DoD regulation and the OSD memorandum to the
    Services on requesting emergency supplemental funds for contingency operations
    specify that funds are for deploying personnel.

    However, during FY 2006, PEO Soldier used about $221 million in emergency
    supplemental funds to outfit about 125,000 nondeploying soldiers. In addition, in
    FY 2007, PEO Soldier planned to use supplemental funds to provide RFI items to
    nondeploying soldiers. These supplemental funds should have been used only for
    deploying soldiers in support of contingency operations, not on soldiers who were
    not deploying.

    PEO Soldier’s request for emergency supplemental funds for RFI items should be
    for deploying soldiers only, in accordance with congressional, DoD, and Army
    guidance. In addition, the Office of the Assistant Secretary of the Army
    (Financial Management and Comptroller) must review PEO Soldier’s request for
    emergency supplemental funds to determine that it includes requirements for
    deploying soldiers only.

Management Comments on Finding and Audit Response
    Program Executive Office Soldier Comments. PEO Soldier, through the
    Assistant Secretary of the Army (Acquisition, Logistics, and Technology),
    nonconcurred with the finding that the PEO Soldier Program Office had an
    internal control weakness concerning the way it requested, documented, and used
    supplemental appropriations in support of RFI. PEO Soldier stated that the Chief
    of Staff of the Army approved the campaign plan to equip the entire operational
    Army by the end of FY 2007, with no distinction between deploying and
    nondeploying soldiers. Funding for the campaign plan was primarily through
    supplemental appropriations. Therefore, supplemental appropriations were used
    to equip soldiers not scheduled to deploy because PEO Soldier was operating


                                        8

    within the campaign plan. Since all soldiers will eventually deploy or must be
    prepared to deploy at any time, equipping soldiers not scheduled to deploy did not
    constitute an internal control weakness. PEO Soldier personnel further stated that
    they had previously requested baseline funds, but Army G-8 had removed the
    request for baseline funding from the justification it sent to the Assistant
    Secretary of the Army (Financial Management and Comptroller) and directed
    PEO Soldier to expect and use supplemental funding. Citing the Army G-8
    action, PEO Soldier officials stated they do not have an internal control weakness.
    PEO Soldier also stated that, despite Army and DoD guidance regarding the use
    of supplemental funding, for FY 2006 DoD and Congress changed and expanded
    the purpose of supplemental funding to meet noncontingency requirements such
    as modularity. PEO Soldier noted that the draft report does not mention this
    change.

    Audit Response. We acknowledge that the Chief of Staff for the Army required
    equipping the entire operational Army with RFI items. However, Army officials
    have not provided documentation that supports PEO Soldier’s statement that all
    funding to support the campaign plan was provided by supplemental funds and
    that the Army G-8 removed the baseline funding request and expected PEO
    Soldier to use supplemental funding to outfit the operational Army with RFI
    items. DoD and Army guidance on requesting supplemental funds for
    contingency operations is clear. Because funds were not requested for
    nondeployers, PEO Soldier should not field RFI items to those soldiers. PEO
    Soldier was provided and has used baseline funding in the past to field RFI items.
    Also, the decision by the Army Requirements and Resources Board on
    November 16, 2006, to limit the fielding of RFI items to deploying soldiers
    supports our finding and recommendations on the use of emergency supplemental
    funds.

    PEO Soldier also cited the Army Modularity Forces Initiative as a
    noncontingency program funded with supplemental funds. Although we do not
    know whether modularity is a contingency requirement, the Army explicitly
    requested emergency supplemental funds for the Modularity Forces Initiative,
    whereas the emergency supplemental funds request for Rapid Fielding Initiative
    items did not state that these items would be provided to nondeploying soldiers.
    With the limited reviews accorded these requests in the Office of the Secretary of
    Defense and Assistant Secretary of the Army (Financial Management and
    Comptroller), the Army should ensure that funds are used for their intended
    purpose.

Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Program Executive Officer Soldier:

           a. Develop procedures and documents to determine whether Rapid
    Fielding Initiative costs are related to deploying soldiers.

           b. Document requests for emergency supplemental funds that are for
    contingency operations.



                                         9

       c. Field Rapid Fielding Initiative items acquired with supplemental
funds only to those soldiers who are deploying or are scheduled to deploy.

      d. Request baseline operation and maintenance funding to field
Rapid Fielding Initiative items to nondeploying soldiers.

Management Comments. PEO Soldier nonconcurred, declaring the
recommendations in the draft report to separate deploying and nondeploying
funding requirements moot because of the resourcing and equipping guidance
PEO Soldier received from Army G-8.

Audit Response. While the mission of outfitting the entire operational Army fell
on PEO Soldier, the Chief of Staff for the Army and the Assistant Secretary of the
Army (Financial Management and Comptroller) did not provide additional
baseline funding for FYs 2006 and 2007 to accomplish the mission. According to
the management comments of PEO Soldier, the Army G-8 office removed PEO
Soldier’s request for baseline funding and directed PEO Soldier to expect and use
emergency supplemental funding. We could not find support that Army G-8
removed the baseline funding and directed Program Executive Office Soldier to
use supplemental funding. Congressional, DoD, and Army guidance provides
policy and instructions for requesting and using emergency supplemental funds.
All the guidance issued links the use of supplemental funds to contingency
operations. The actions of PEO Soldier were not in accordance with DoD
guidance, which limited the request for supplemental funds in FY 2006 to RFI
items for deploying forces. Also, FY 2007 DoD guidance stated that
supplemental costs should address only those incremental costs that are
“emergency” in nature and are specifically required to prosecute mission
objectives. The guidance further stated, “Costs that can be deferred without
immediate operational impact will not be included.”

In addition, the decision by the Army Requirements and Resources Board on
November 16, 2006, to limit the fielding of RFI items to deploying soldiers
supports our finding and recommendations on the use of emergency supplemental
funds. PEO Soldier should develop procedures and documents to determine
whether RFI costs are related to deploying soldiers, and document RFI costs
related to deploying soldiers to support requests for emergency supplemental
funds for contingency operations. In addition, PEO Soldier should field items
acquired with supplemental funds only to soldiers deploying or planning to
deploy. We ask that PEO Soldier reconsider and provide additional comments on
the recommendations by January 7, 2008.

2. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) develop a process to verify and document
that requests for emergency supplemental funds are for deploying soldiers in
support of contingency operations.

Management Comments Required. The Assistant Secretary of the Army
(Financial Management and Comptroller) did not provide written comments on
the draft of the report. We request that the Assistant Secretary provide comments
on the final report by January 7, 2008.




                                    10

Appendix A. Scope and Methodology 

   We conducted this performance audit in accordance with generally accepted
   government auditing standards. Those standards require that we plan and perform
   the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
   for our finding and conclusions based on our audit objectives. We believe that
   the evidence obtained provides a reasonable basis for our finding and conclusions
   based on our audit objectives.

   We reviewed the supply chain management of clothing and textile (Class II) items
   for the Army’s RFI to determine whether they were being obtained efficiently and
   effectively. We reviewed the requirements determination process for Class II
   items, the acquisition of selected Class II items, and supply responsiveness. We
   evaluated the Army’s practices and procedures used in the acquisition and
   management of RFI items. We assessed the Army’s method of funding RFI for
   FY 2006 and 2007, the Army’s procurement practices for those items, and the
   manner in which the Army developed the requirements for that program.

   We performed this audit from December 2005 through July 2007 in accordance
   with generally accepted government auditing standards. We interviewed
   personnel responsible for developing requirements, funding, and acquisition of
   RFI items: the Army’s PEO Soldier, the Assistant Secretary of the Army
   (Financial Management and Comptroller), the Army Office of the Deputy Chief
   of Staff for Operations and Plans, the Army Office of the Deputy Chief of Staff
   for Logistics, and the Army Office of the Deputy Chief of Staff for Programs. We
   also interviewed contractor personnel working for PEO Soldier and personnel
   from the Defense Logistics Agency and from the Defense Supply Center
   Philadelphia. We reviewed documentation dated from June 2004 through July
   2007, laws, DoD Directives, Regulations, and Instructions, as well as guidance
   from the Office of the Secretary of Defense and the Army on the use of
   emergency supplemental funds.

   Use of Computer-Processed Data. We relied on limited computer-processed
   data to perform this audit. Use of computer-processed data included data that
   PEO Soldier and the Defense Supply Center Philadelphia provided. We did not
   assess the reliability of the information because the data from the systems were
   not the basis for our finding or conclusions.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Supply Chain Management high-risk area.

   Prior Coverage. During the last 5 years, the Army Audit Agency issued Report
   No. A-2005-0182-ALS, “Rapid Fielding Initiative Accountability Procedures,”
   May 12, 2005.




                                       11

Appendix B. 	Supply Chain Management of
             Class II Items for RFI
The acquisition of Class II items for RFI by DLA and PEO Soldier, the supply
responsiveness of RFI, and requirements determination for Class II items in RFI were
effective. Considering the urgent and compelling nature of RFI and regulatory guidance,
PEO Soldier’s acquisition of selected Class II items was warranted.

Acquisition of Class II Items. Acquisition of Class II items by both DLA and PEO
Soldier to support RFI was warranted, considering the urgent and compelling nature of
the requirement and regulatory guidance. As of May 2006, we concluded that PEO
Soldier’s decision to acquire 14 of the 18 Class II items using Army acquisition
organizations was appropriate. The RFI mission was one of the top priorities in
supporting the Global War on Terrorism. The Vice Chief of Staff Army directed the
Army Staff to rapidly field these items to deploying soldiers to support the Global War
on Terrorism. In October 2003, the Army Deputy Chief of Staff, G-3 requested
assistance in acquiring these items from the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology). The Army G-3 requested that the items be
acquired on an urgent and compelling basis, stating: “A delay in this process will
jeopardize the Army’s ability to successfully execute the mission and needlessly risk
Soldiers’ lives.”

DoD Directive 5000.1, “The Defense Acquisition System,” May 12, 2003, assigns
responsibility to the program manager for the total life-cycle management of systems. As
such, the program manager must manage and plan for their acquisition. The Defense
Federal Acquisition Regulation Supplement Part 208.7003-1, June 21, 2005, permits
agencies to acquire items from sources other than the Integrated Materiel Manager when
the purchase by the requiring organization is in the best interest of the Government in
terms of quality, timeliness, and cost.

In January 2006, the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) coordinated with DLA before issuing policy for Clothing and
Individual Equipment Acquisition and Sustainment. The guidance identifies the program
manager as responsible for equipping the Army and states that initial fielding quantities
should be determined based on Army guidance, urgency, operational needs, industrial
capacity, and available funding. Because of the set schedule for deploying large numbers
of soldiers and the requirement to outfit them with RFI items, the guidance permitted
PEO Soldier to use its procurement strategy in outfitting soldiers. PEO Soldier wanted
DLA to guarantee that RFI items would be available for delivery before scheduled
fielding events for soldiers scheduled to deploy. DLA was not able to guarantee to PEO
Soldier that it would be able to meet delivery schedules that would satisfy the
deployment schedules.

According to PEO Soldier and DLA personnel, constraints on obligation authority for the
DLA revolving stock fund prevented DLA from placing the high volume of RFI items on
contract early enough to guarantee deliveries to PEO Soldier within the required time
frames. DLA personnel stated that they were reluctant to invest in large inventories of
RFI items because of frequent design and technical changes; investment in items subject
to design changes could result in DLA holding unsold inventory. Data provided by PEO
Soldier showed that 11 of the 18 RFI items we reviewed had specification changes—


                                           12

some more than one change. PEO Soldier personnel said the changes occurred because
PEO Soldier was constantly looking to improve and provide the best items to the
soldiers.

Because of the need to outfit large numbers of deploying soldiers in a short time,
allowing the Army to acquire some RFI Class II items through Army acquisition
organizations enabled it to accomplish the initial fielding of RFI items.

Supply Responsiveness. Our review of the Consolidated Fielding Record as of
September 30, 2006, showed that supply responsiveness for deploying soldiers had
improved: most received RFI items prior to deployment. PEO Soldier used the
Consolidated Fielding Record as the scorecard for all fieldings completed. We analyzed
the fielding event codes, the date fielded, and units’ destinations to determine the
percentage of soldiers who received RFI items in Southwest Asia and those who received
RFI items at bases within the continental United States. The result was that the
percentage of deploying soldiers who were provided with RFI items at fielding events in
Southwest Asia versus those in the continental United States has declined from
61 percent in FY 2004 to 14 percent in FY 2006. The primary goal of RFI was to ensure
each soldier scheduled for deployment would have all applicable RFI items prior to
deployment in support of contingency operations. As a result of the acquisition strategy
employed by PEO Soldier, 86 percent of the soldiers identified for deployment in
FY 2006 received RFI items before they deployed.

Requirements Determination. Our review of requirements determination of Class II
items by PEO Soldier in March 2006 involved evaluating requirements in two ways.
First, we determined whether PEO Soldier received high-level approval to outfit the total
number of soldiers requiring RFI items. PEO Soldier provided documentation that
showed the Army approved RFI items to support about 958,000 soldiers. The
documentation included both written and verbal direction from the Army Vice Chief of
Staff. For example, in a January 2004 meeting with PEO Soldier personnel, the Army’s
Chief of Staff approved outfitting the operational Army with RFI items. In February
2004, the Soldier-as-a-System Army Capabilities Review Board endorsed the Chief of
Staff’s approval. Prior to January 2004, only soldiers deploying in support of Operation
Enduring Freedom and Operation Iraqi Freedom were part of the RFI requirements
calculation. PEO Soldier provided us with minutes of the January 2004 meeting at which
the Army’s Chief of Staff instructed PEO Soldier to expand its mission and provide RFI
items to include the operational Army.

As part of the requirements determination process, we asked PEO Soldier representatives
to demonstrate how they calculated the number of soldiers in the operational Army. PEO
Soldier used the Structure and Manpower Allocation System, maintained by the Army’s
Office of the Deputy Chief of Staff, G-3. The system records, maintains, and distributes
force structure information, such as the number of soldiers in each unit for all Army
units, and also includes a force structure file that reflects the approved structure of each
Army unit. The Office of the Deputy Chief of Staff, G-3, updates the Structure and
Manpower Allocation System periodically to reflect changes in Army end strength. PEO
Soldier representatives showed us, and we verified, how they incorporated force structure
changes into the March 2006 operating requirements of 797,000 soldiers and how they
tracked changes to the updated Structure and Manpower Allocation System database.

Second, we determined whether PEO Soldier had Army approval for individual Class II
items included in RFI mission requirements. PEO Soldier provided a copy of the minutes


                                            13

from a meeting of the Army Requirements Oversight Council in June 2004. The minutes
showed that the Council validated and approved 18 Class II items for inclusion in RFI.
To determine requirements for each individual Class II item, PEO Soldier developed a
detailed methodology and established a local database to compute item requirements
needed to support the monthly fielding. The methodology provided for differences in
item authorizations per soldier, type of units, and soldier sizes. Each soldier, for
example, was authorized four moisture-wicking T-shirts, two pairs of silk-weight
underwear, and one fleece jacket. But only soldiers in brigade combat teams were
authorized modular, lightweight, load-carrying equipment. Also, PEO Soldier
computations for requirements provided for some extra quantities of items (referred to as
tariffs) that were needed to accommodate size differences. For example, RFI authorized
one advance combat helmet per soldier, but to accommodate differences in head sizes,
PEO Soldier increased monthly requirements by 6 percent. It did so to keep a sufficient
number of helmets on hand to outfit soldiers during RFI fielding events.

PEO Soldier also established a database that incorporated its methodology for
determining requirements. Our verification of monthly requirement computations for
seven Class II items in March 2006 showed that the computations were consistent with
the methodology developed by PEO Soldier and were generally accurate.

In summary, PEO Soldier determined mission requirements for RFI based on Army
approvals and received appropriate support for operational Army numbers included in
requirements. In addition, for individual Class II items included in RFI, PEO Soldier
determined requirements using a detailed methodology that was reasonable.




                                           14

Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Other Defense Organization
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          15

Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments


                                   D E P A R T M E N T   O F   T H E   A R M Y
                             OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                 ACQUISITION LOGISTICS AND TECHNOLOGY
                                           103 ARMY PENTAGON
                                          WASHINGTON DC



      SAAL-SMS                MAY                    1 4 2007


      MEMORANDUM FOR DEPARTMENT OF DEFENSE OFFICE OF THE INSPECTOR
                       GENERAL

      SUBJECT: Response to the Department of Defense Office of Inspector General Draft
               Report on Request For and Use of Emergency Supplemental Funds for the
               Rapid Fielding Initiative (Project No. D2006-D000LD-0062.000)


             I am forwarding the enclosed Program Executive Office (PEO) Soldier's response
      to the subject report with my endorsement. The Office of the Assistant Secretary of the
      Army (Acquisition, Logistics and Technology) and PEO Soldier have adequate
      management controls in place to ensure that funds appropriated by Congress are used
      for programs and purposes for which the appropriation is made. Further, my staff will
      continue to ensure that processes comply with Department of Defense Instruction
      5010.40, "Managers' Internal Control Program Procedures," January 4, 2006­




                                                       Claude M. Bolton, Jr.
                                                 Assistant Secretary of the Army
                                             (Acquisition, Logistics and Technology)

      Enclosure




                                                     17
Program Executive Office Soldier Comments


                                     DEPARTMENT OF THE ARMY
                                     PROGRAM EXECUTIVE OFFICE SOLDIER
                                        5901 PUTNAM ROAD, BLDG 328
                                         FORT BELVOIR VA 22060-5422
             REPLY TO
             ATTENTION OF                               APR                                  2 0 2007
      SFAE-SDR


      MEMORANDUM THRU The Assistant Secretary of the Army Acquisition, Logistics and
      Technology / Army Acquisition Executive, 103 Army Pentagon, Washington, D.C., 20310-0103

      FOR The Office of the Inspector General of the Department of Defense, 400 Army Navy Drive,
      Arlington, VA, 22202-4704

      SUBJECT: Program Executive Office Soldier's Response to the DODIG Draft Report "Request
      for and use of Emergency Supplemental Funds for the Rapid Fielding Initiative ­ Project No.
      D2006-D00OLD-0062.000, Dated March 22, 2007"


      1. PEO Soldier non-concurs with the findings of the draft report, which state that PEO Soldier
      had an internal control weakness regarding the request, documentation and use of Supplemental
      Appropriations in support of RFI. Reasons for the non-concurrence are:

              a. In January 2004, the CSA approved the RFI Campaign Plan, which required the
      equipping of the entire Operational Army by the end of FY 2007. This Campaign Plan carried
      no distinction between Soldiers already deployed, scheduled to be deployed, or not yet scheduled
      to be deployed.

              b. Nearly all funding to support the Campaign Plan was, and still is, provided by
      Supplemental Appropriations. Therefore, Supplemental Appropriations were and are used to
      equip Soldiers not yet scheduled to be deployed. Since PEO Soldier was operating in accordance
      with the Campaign Plan and since all Soldiers/units will eventually deploy or must be prepared
      to deploy at any time, this is not an internal control weakness.

             c. PEO Soldier did request baseline O&M funding to support the RFI Campaign Plan (in
      2005) and for subsequent Soldier equipping initiatives, such as Core Soldier (in 2006). $470.2M
      was requested in February 2005 for FY07 Campaign Plan support. S4.2B was requested in
      February 2006 for the POM years 08-13 for Core Soldier support. The G-8 response to these
      requests was removal of the baseline funding and direction to PEO Soldier to expect and utilize
      Supplemental funding.

             d. Notwithstanding the Army and DOD guidance cited in the draft report, DOD and
      Congress changed (for FY2006) and expanded the purpose of Supplemental Funding to include
      non-contingency requirements, such as modularity. This changed approach to Supplemental
      Appropriations is not mentioned in the draft report, and PEO Soldier recommends that this
      expanded use of Supplemental Funding be included in the report.




                                                   18
SFAE-SDR


SUBJECT: Program Executive Office Soldier's Response to the DODIG Draft Report
"Request for and use of Emergency Supplemental Funds for the Rapid Fielding Initiative —
Project No D2006-D000LD-0062.000, Dated March 22, 2007"

         2. Since PEO Soldier was operating in accordance with Army Campaign Plan resourcing
and equipping guidance provided by G-8, the recommendations made in the draft report
regarding the need to separate deploying and non-deploying funding requirements are moot.
Regardless of what the general Congressional and DoD guidance states regarding the use of
Supplemental funding, both bodies have provided Supplemental funding for non-contingency
operations and continue to do so. PEO Soldier recommends that the report be changed to
remove the assertions that PEO Soldier had material weaknesses with regard to the management
of Supplemental funds for RFI, and remove recommendations 1(a) through 1(d) in the
Recommendations section on page 8. PEO Soldier also suggests that the report should include
all facts regarding non-contingency uses of Supplemental funding.

3. Point of contact is Mr. Gregory Agee, (703)                                       704-2804,

Gregory.agee@belvoir.army.mil                                   2 Encls                          R. Mark   Brown



1. RFI PBR 07-11 slide, Feb 05                   Brigadier General, USA
2. Core Soldier POM 08-13 slide, Feb 06          Program Executive Officer Soldier


CF:
AMC Internal Review, ATTN: Team Leader HQ, AMCIR Liaison, BLDG 1-2SW4306, 9301
Chapek Road, Fort Belvoir, VA 22060-5527




                                                 2




                                                 19
                                      *





* DoD Planning, Programming, and Budget System Information omitted.



                                      20 

                                      *





* DoD Planning, Programming, and Budget System Information omitted.



                                      21 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Thomas S. Bartoszek
Robert E. Schonewolf
Alexander L. McKay
Eugene Barr
Mandy L. Rush
Jacqueline N. Pugh
Allison Tarmann
